No.
THELMA G. MCCOY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Petition for a Writ of Certiorari was
hand-delivered by courier to the U.S. Supreme Court
on December 30, 2020. Additionally, a copy of the Petition for a Writ of Certiorari was sent to counsel by
overnight FedEx, as well as by transmitting a digital
copy via electronic mail.
Jeffrey B. Wall
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
Direct: 202-514-2217
E-mail: SupremeCtBriefs@USDOJ.gov
/s/ Kelsi Brown Corkran
Counsel of Record

